                            SOCIAL SECURITY
                            Office of the Inspector General

                                      July 29, 2011



The Honorable Sam Johnson
Chairman, Subcommittee on
 Social Security
Committee on Ways and Means
House of Representatives
Washington, D.C. 20515

Dear Mr. Johnson:

In an April 14, 2011 letter, you asked that we review the Social Security Administration’s
(SSA) long-term customer service delivery planning. Specifically, you requested we
determine whether SSA had a long-term (10 years or longer) customer service delivery
plan. If SSA had a plan, you asked us to evaluate the plan. If SSA did not have a plan,
you asked that we determine what information should be included in a long-term
customer service delivery plan.

I appreciate the opportunity to share our insights on this important matter. To ensure
SSA is aware of the information provided to your office, we are forwarding a copy of this
report to the Agency.

If you have any questions concerning this matter, please call me or have your staff
contact Misha Kelly, Congressional and Intra-Governmental Liaison, at (202) 358-6319.

                                         Sincerely,




                                         Patrick P. O’Carroll, Jr.
                                         Inspector General

Enclosure

cc:
Michael J. Astrue




             SOCIAL SECURITY ADMINISTRATION       BALTIMORE, MD 21235-0001
CONGRESSIONAL RESPONSE
       REPORT
The Social Security Administration’s
   Customer Service Delivery Plan
            A-07-11-01125




              July 2011
                                                      Mis s io n
By c o n d u c tin g in d e p e n d e n t a n d o b je c tive a u d its , e va lu a tio n s a n d in ve s tig a tio n s ,
we in s p ire p u b lic c o nfid e n c e in th e in te g rity a n d s e c u rity o f S S A’s p ro g ra m s a n d
o p e ra tio n s a n d p ro te c t th e m a g a ins t fra u d, wa s te a n d a b us e . We p ro vid e tim e ly,
u s e fu l a n d re lia b le info rm a tio n a n d a d vic e to Ad m in is tra tio n o ffic ia ls , Co n g re s s
a n d th e p u b lic .

                                                    Au th o rity
Th e In s p e c to r Ge n e ra l Ac t c re a te d in d e p e n d e n t a u d it a n d in ve s tig a tive u n its ,
c a lle d th e Offic e o f Ins p e c to r Ge n e ra l (OIG). Th e m is s io n o f th e OIG, a s s p e lle d
o u t in th e Ac t, is to :

    Co n d u c t a n d s u p e rvis e in d e pe n d e n t a n d o b je c tive a u d its a n d
     in ve s tig a tio n s re la ting to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    P ro m o te e c o n o m y, e ffe c tive n e s s , a n d e ffic ie n c y with in th e a ge nc y.
    P re ve n t a n d d e te c t fra u d , wa s te , a n d a b u s e in a ge n c y p ro g ra m s a n d
     o p e ra tio n s .
    Re vie w a n d m a ke re c o m m e n d a tio n s re ga rd in g e xis tin g a n d p rop o s e d
     le g is la tio n a n d re g u la tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    Ke e p th e a ge n c y h e a d a n d th e Co n g re s s fu lly a n d c u rre n tly in fo rm e d o f
     p ro b le m s in a g e n c y p ro g ra m s a n d o pe ra tio n s .

   To e n s u re o b je c tivity, th e IG Ac t e m p owe rs th e IG with :

    In d e p e n d e n c e to d e te rm in e wha t re vie ws to p e rfo rm .
    Ac c e s s to a ll in fo rm a tio n n e c e s s a ry fo r th e re vie ws .
    Au th o rity to p u b lis h fin d in g s a n d re c o m m e n d a tio n s b a s e d o n th e re vie ws .

                                                       Vis io n
We s trive fo r c o n tin u a l im p ro ve m e n t in S S A’s p ro g ra m s , o p e ra tio n s a n d
m a n a g e m e n t b y p ro a c tive ly s e e kin g n e w wa ys to p re ve n t a n d d e te r fra u d , wa s te
a n d a b u s e . We c o m m it to in te g rity a n d e xc e lle n c e b y s u p p o rtin g a n e n viro n m e n t
th a t p ro vid e s a va lu a b le p u b lic s e rvic e while e nc o u ra g in g e m p lo ye e d e ve lo p m e n t
a n d re te n tio n a n d fo s te rin g d ive rs ity a n d in n o va tio n .
                                                                             Background
OBJECTIVE
The objective of our review was to evaluate the Social Security Administration’s (SSA)
long-term customer service delivery planning. 1

BACKGROUND
The Social Security and Supplemental Security Income (SSI) programs touch nearly all
Americans at some point in their lives. Each year, millions of Americans apply for
Social Security benefits, SSI payments, or a Social Security number card. In fact, in
Fiscal Year (FY) 2009, SSA received approximately 3.1 million applications for Social
Security retirement benefits. 2 According to SSA officials, this number will increase to
more than 3.9 million in FY 2020. While SSA anticipates an increase in retirement
claims, it expects the number of Social Security disability and SSI claims to decrease
slightly by FY 2020. 3

While the majority of customers currently conduct business with SSA through field office
visits and telephone calls to SSA’s national 800-number, SSA customers are increasing
their use of SSA’s Internet services. In fact, in FY 2010, customers filed 37 percent of
retirement claims and 27 percent of disability claims on the Internet. SSA expects these
percentages to increase as more of the 80 million Internet-proficient Baby Boomers file
for SSA benefits. 4 In fact, a Pew Research Center study shows a significant increase in
Internet usage in the past 10 years for the age group that will be applying for SSA
benefits within the next 10 to 20 years (see Table 1). 5




1
  As defined in the request from Congressman Sam Johnson, long-term means a period of 10 years or
longer.
2
    SSA, Annual Statistical Supplement to the Social Security Bulletin, 2010, February 2011, p. 2.73.
3
  According to the Annual Statistical Supplement to the Social Security Bulletin, in FY 2009, SSA received
approximately 2.9 million applications for Social Security disability benefits. According to SSA officials,
this number will be almost 2.8 million in FY 2020. According to the Annual Statistical Supplement to the
Social Security Bulletin, in FY 2009, SSA received approximately 3.1 million applications for SSI.
According to SSA officials, this number will be almost 2.9 million in FY 2020.
4
 In FY 2012, SSA’s goal is to have 50 percent of retirement claims and 38 percent of disability claims to
be filed on the Internet. SSA, Social Security Administration Fiscal Year 2012 Budget Overview,
February 2011, pgs. 14 and 17.
5
 Results from the Pew Research Center’s Pew Internet & American Life Project can be found at
http://www.pewinternet.org/Trend-Data/Usage-Over-Time.aspx.


SSA’s Customer Service Delivery Plan (A-07-11-01125)                                                    1
                                Table 1
                Increase in Internet Usage Since 2000
       Age Group March 2000 May 2010 Percentage Increase
       Overall        46%           79%              72%
       50-64          36%           78%             117%
       65+            12%           42%             250%

In an April 14, 2011 letter, Congressman Sam Johnson asked that we review SSA’s
long-term customer service delivery planning. See Appendix B for a detailed discussion
of the scope and methodology of our review.




SSA’s Customer Service Delivery Plan (A-07-11-01125)                               2
                                                        Results of Review
SSA does not have a long-term (10 years or longer) customer service delivery plan.
Instead, SSA uses its Agency Strategic Plan (ASP) to present the incremental steps it
must take to reach a greater vision for the Agency. The ASP describes the goals and
milestones of mostly short- and mid-range (3 to 5 years) initiatives, but does not prepare
SSA for customer service demands in the long term. 6

On April 27, 2011, the President issued Executive Order 13571 (Streamlining Service
Delivery and Improving Customer Service). 7 The Executive Order requires that Federal
agencies, within 180 days of the Executive Order, develop “. . .a Customer Service Plan
to address how the agency will provide services in a manner that seeks to streamline
service delivery and improve the experience of its customers.” 8 On June 13, 2011, the
Office of Management and Budget (OMB) issued guidance to Executive agencies on
how to implement the Executive Order. 9 OMB’s guidance does not specifically address
whether the plan should have a short-term or long-term focus.

SSA must develop a long-term customer service delivery plan that prepares it for
increased workloads and service delivery in an electronic environment. The plan must
outline what the service delivery environment will be long-term, including what services
customers will expect and how they will want services delivered. The plan must be a
roadmap that ensures the Agency is technologically and structurally prepared with
appropriate staff to operate its programs in the future. In addition, the plan must have
timelines and performance metrics to ensure SSA achieves its goals.

We identified issues that SSA should address when developing a long-term customer
service delivery plan. We also provided best practices from government and private
industry that SSA should consider when developing a long-term plan.

SSA’S LONG-TERM CUSTOMER SERVICE DELIVERY PLAN

Since SSA does not have a long-term customer service delivery plan, we identified
issues that SSA should address when it develops such a plan. Specifically, SSA should
address the following issues:

• Electronic services
• Information technology (IT) environment

6
    The most recent ASP covers FYs 2008 through 2013. SSA is developing an ASP through FY 2017.
7
    76 FR 24339.
8
    Id. at section 2.
9
 OMB, Implementing Executive Order 13571 on Streamlining Service Delivery and Improving Customer
Service, M-11-24 (June 13, 2011).


SSA’s Customer Service Delivery Plan (A-07-11-01125)                                              3
• Staffing
• Physical infrastructure
• Performance metrics
• Potential challenges

Electronic Services

SSA’s long-term customer service delivery plan must recognize that a majority of the
customers it will serve in 10 years will expect to conduct business electronically,
conveniently, and without the intervention of an Agency employee. In fact, the Future
Systems Technology Advisory Panel (FSTAP) recommended that SSA prepare to move
to an electronic self-service model where 90 percent of its business is online. 10

To ensure SSA’s long-term customer service delivery plan addresses the electronic
service expectations of its customers, SSA needs to identify what services customers
will expect in the future and how customers will want services delivered. To identify this
information, SSA must continually obtain input from its customers—through surveys,
in-person meetings, and focus groups—on their expectations for electronic service
delivery options.

The long-term customer service delivery plan must include how SSA will provide
customers with service via advanced and ever-changing electronic technology.
Already, the public is using mobile devices, such as smart phones and tablet
computers, to conduct business, and these devices are replacing desktop computers
because of their mobility. In fact, analysts expect people will access the Internet more
frequently via mobile devices than via desktop computers beginning in 2013 (see
Figure 1). 11 As such, SSA must have applications that support today’s latest electronic
devices and the devices that come along with tomorrow’s technology.




10
   FSTAP, Re-imagining Social Security, June 2010, p. 2. The Commissioner of Social Security
established FSTAP in February 2008 to provide independent advice and recommendations on the future
of systems technology and electronic services at SSA 5 to 10 years into the future.
11
  Matthew Ingram, Mary Meeker: Mobile Internet Will Soon Overtake Fixed Internet, Tech News and
Analysis (April 12, 2010, 2:27 PM PT), http://gigaom.com/2010/04/12/mary-meeker-mobile-internet-will-
soon-overtake-fixed-internet/.


SSA’s Customer Service Delivery Plan (A-07-11-01125)                                                4
                                               Figure 1




Although SSA does not have a plan outlining its long-term electronic services initiatives,
SSA offers a variety of electronic services via the Internet. Those Internet services are
accessible from both personal computers and mobile devices. As of June 2011, SSA
offered 21 citizen-to-government electronic services via the Internet. 12

SSA is also continually expanding its electronic services. For example, SSA is
developing a personal account portal, known as MySSA, and expects to implement the
portal in FY 2012. After a customer signs into the portal, SSA anticipates the customer
will initially be able to access his or her Social Security statement, verify benefits,
change an address, and access direct deposit services. SSA expects customers will
eventually have access to all its online services through MySSA.

As a further expansion of electronic services, SSA is developing a Spanish Internet
claim application. This will allow Spanish-speaking customers to complete an online
application for retirement, disability, or Medicare benefits. In addition, SSA will soon
release its Nonresident Alien Tax Screening Tool, which will allow customers who
reside outside the United States to determine whether SSA should withhold taxes from
their benefits. SSA is also developing an interactive screening tool for customers with
pensions from employment not covered by Social Security. This tool, set to be released
in FY 2012, will provide information on how the pensions will affect customers’ Social
Security benefits.


12
   See Appendix C for the name, a brief description, and the implementation date for each
citizen-to-government electronic service.


SSA’s Customer Service Delivery Plan (A-07-11-01125)                                        5
In anticipation of an increased need to provide services via mobile devices, SSA is
experimenting with electronic services for mobile devices. For example, SSA recently
released the Baby Name Playroom application for the iPhone. This application allows
users to search the most popular baby names of the past 130 years based on Social
Security data.

Information Technology Environment

SSA’s long-term customer service delivery plan must address the information
technology investments SSA will need to support the expansion of electronic services in
the future. 13 The long-term planning should include an overall assessment of its current
and future IT environment including hardware, software, and data center needs. 14

Hardware and Software

SSA’s long-term customer service delivery plan should identify the hardware and
software investments needed to support the future electronic service delivery
environment. For example, the long-term plan must provide for customer-friendly
services using Web-based technology.

In addition, SSA must assess the viability of its current hardware and software in the
future. For example, SSA has used the software programming language Common
Business Oriented Language (COBOL) to support SSA applications for the last
30 years. SSA’s long-term customer service delivery plan should include any proposals
to transition from COBOL to other programming languages.

Although SSA does not have a customer service delivery plan outlining its long-term
hardware and software needs, SSA has identified changes to hardware and software
that will improve customer service. For example, in August 2008, SSA began receiving
medical records electronically using health IT (HIT). SSA currently receives medical
records through HIT from two medical provider organizations—one in Massachusetts
and one in Virginia. According to SSA officials, receiving medical records through HIT
has resulted in an 18-percent reduction in the time it takes to process initial claims in the
two States using HIT. SSA is expanding HIT to 10 more States.

Further, SSA will implement new software to verify customers’ identities to support the
personal account portal, MySSA. According to SSA officials, the new software will
provide adequate security to customers and ensure a user-friendly, secure way of
conducting extended business with SSA. Customers will maintain one username and
password to access multiple electronic services from the Agency.
13
   SSA has recognized the need for IT planning, and in February 2009, developed an IT vision to address
its short- and mid-range IT needs. SSA, Information Technology Vision: 2009 - 2014, February 2009. In
addition, SSA’s Office of the CIO monitors trends in IT to ensure SSA takes advantage of new and
evolving trends.
14
  Hardware is a physical device, such as a computer or a smart phone, which runs programs, known as
software, to perform a task.


SSA’s Customer Service Delivery Plan (A-07-11-01125)                                                 6
SSA is also examining new computing models, such as cloud computing, that would
enable computer resources, such as hardware, to be shared. According to the U.S.
Chief Information Officer (CIO), cloud computing “. . .allows users to control the
computing services they access, while sharing the investment in the underlying IT
resources. . .With a cloud computing approach, [users] can spend less time managing
complex IT resources and more time investing in core mission work.” 15 SSA moved its
telephone system to a cloud-based system to manage the call volume to the national
800-number and is researching movement of its email system.

Data Centers

SSA’s long-term customer service delivery plan must address how the Agency’s data
center needs in 10 years will differ from those of today. SSA needs to identify the data
center capacity required to support future electronic services, the capacity costs, and
innovative methods for achieving necessary capacity while minimizing costs. SSA’s
long-term customer service delivery plan should also include ongoing processes to
assess the usefulness and structural integrity of its data centers to avoid any potential
lapse in service.

Long-term data planning is critical to ensure uninterrupted operability of its data centers,
which is a current concern with the Agency’s National Computer Center (NCC). At over
30 years old, the NCC has exhausted its useful life due to inadequate electricity, wiring,
and emergency power supplies. While SSA is building a new data center, the National
Support Center, its electronic communications remain at risk since the new data center
will not be complete until January 2015. Adequate long-term planning on SSA’s part
would have resulted in replacement of the NCC before placing the Agency’s electronic
communications at risk.

Staffing

SSA’s staff is an integral part of its service delivery—interacting with the public every
day and authorizing more than $700 billion in benefits annually. Presently, most of
SSA’s service is face-to-face or via telephone. However, many of the customers SSA
will serve in the next 10 years may expect self-service electronic business without the
intervention of an Agency employee. Therefore, in a long-term customer service
delivery plan, SSA should determine how it will recruit, develop, and retain staff with the
skills necessary to meet customers’ electronic service demands of the future.

While SSA anticipates approximately 36 percent of its staff will retire in the next
10 years, SSA has not projected the expected number of employees it will need to
perform its mission in the long term or the types of positions it will need. SSA
anticipates its future workforce will have and need a high aptitude to new technologies.
As members of the Baby Boomer generation retire, SSA anticipates members of the
computer-literate Generation Y (people born between 1980 and 2000) will become the
largest percentage of the Agency’s workforce.
15
     Vivek Kundra, U.S. CIO, Federal Cloud Computing Strategy, February 8, 2011, p. 5.


SSA’s Customer Service Delivery Plan (A-07-11-01125)                                     7
Although SSA does not have a customer service delivery plan outlining its long-term
staffing needs, SSA developed a human capital management program. According to
SSA officials, this program includes strategies “. . .to attract, retain, develop, and reward
a diverse workforce and foster a culture of continuous improvement.” To accomplish
the goals of SSA’s human capital management program, SSA will:

• Capitalize on recruitment programs to attract a multigenerational, multicultural
  workforce with the necessary competencies.
• Develop leaders at all levels through comprehensive succession management,
  outstanding development programs, and an extensive array of learning opportunities.
• Improve employee performance by fostering better management-employee
  communication and rewarding excellence.
• Provide an environment and culture that fosters employee retention, promotes
  achievement in public service, and encourages the pursuit of personal excellence
  through continual learning.

Physical Infrastructure

Since 1948, SSA’s organizational structure has consisted of its Baltimore, Maryland,
headquarters and 10 regional offices. SSA provides face-to-face service with
customers in approximately 1,300 field offices. SSA also operates 154 hearing offices
where customers appeal benefit decisions; 37 teleservice centers that provide service to
customers by telephone; and 6 program service centers where SSA employee duties
include disability claims processing and review and benefit recomputations.

In developing a long-term customer service delivery plan, SSA will need to ensure the
physical infrastructure it has had in place for numerous years still supports the service
delivery needs of a changing population. SSA needs to determine whether it should
streamline the physical locations where it provides services, and whether services
should be provided in new locations. For example, the Social Security Advisory Board
(SSAB) suggested SSA provide service via videoconferencing from an individual’s
home computer or at kiosks in various public locations. 16 Furthermore, many future
customers will expect to use mobile devices to file benefit applications. Accordingly,
SSA’s long-term planning should assess whether the number, size, geographic
coverage, and staffing of the Agency’s existing headquarters, regional, and field offices
are in line with future methods of providing customer service.

While SSA does not have a long-term plan that addresses physical infrastructure, SSA
is exploring new ways of delivering service to its customers. For example, SSA
implemented Video Service Delivery (VSD) in 253 field offices and 57 video partner
sites to allow customers easier access to Social Security services. VSD, which uses
16
  SSAB, A Vision of the Future for the Social Security Administration, March 2011, p. 6. SSAB is a
seven-member bipartisan advisory board created in 1994 when SSA became an independent agency. It
was created to advise the President, Congress, and the Commissioner of Social Security on Social
Security and SSI policy.


SSA’s Customer Service Delivery Plan (A-07-11-01125)                                            8
videoconferencing technology, allows consumers to receive “on demand” government
services. VSD can take place between an SSA office and either another SSA office or
a community partner, such as a hospital or library. SSA plans to continue exploring
ways to maximize use of VSD.

For best practices related to physical infrastructure assessment, SSA could look to the
Department of Defense’s (DoD) Base Realignment and Closure (BRAC) program.
Periodically, Congress organizes a commission to perform a BRAC program that
reorganizes the DoD’s infrastructure to more efficiently and effectively support its forces,
increase operational readiness, and facilitate new ways of doing business.
Implementing a program similar to BRAC could help SSA ensure it uses its resources in
the most effective and efficient manner possible to meet customers’ expectations.

In addition, the Census Bureau has experience in physical infrastructure realignment.
Specifically, the Census Bureau recently announced a plan to update the number, size,
geographic coverage, and staffing of its regional offices. The Census Bureau’s goal is
to reduce costs and improve the quality of its annual surveys. As such, the Census
Bureau is reforming its current structure of 12 regional offices, a structure in place since
1961, by taking advantage of technology to enhance performance and reduce costs.
The result will be greatly increased efficiency and enhanced ability to continually provide
high quality data, keeping pace with innovative changes in how surveys are conducted
worldwide. The Census Bureau will eliminate layers of management, streamline
business processes, and close 6 of 12 regional offices. The restructuring, to begin in
FY 2014, is projected to result in $15 million to $18 million in annual savings to the
Federal Government.

Performance Metrics

To ensure SSA adequately progresses toward its goals, the Agency must install
performance metrics in its long-term customer service delivery plan. These
performance metrics will allow SSA to identify areas of success and areas that need
improvement.

SSA should continue developing measurable and objective goals, such as those in its
annual performance plans that are based on the broad objectives in its ASP. However,
unlike the goals in SSA’s annual performance plans, the performance metrics in a
long-term customer service delivery plan should span several years, include interim
goals to ensure success, and be based on specific outcomes. 17




17
  In April 2011, KPMG offered SSA 26 recommendations to assist in developing more outcome-based
performance measurements. These performance measurements will help SSA identify key business
plans to hold the Agency more accountable. SSA OIG, Performance Indicator Audit: The Social Security
Administration’s Fiscal Year 2010 Performance Indicators (A-02-10-11076), April 2011.


SSA’s Customer Service Delivery Plan (A-07-11-01125)                                              9
The strategic plans for the United Way18 and National Nuclear Security Administration
(NNSA) 19 offer best practices in developing performance metrics. For example, the
United Way identified general long-term goals, each of which had multiple target issues
directed at achieving the goal. Each target had an intended result and indicator to
measure whether the intended result was achieved. Likewise, the NNSA identified
select initiatives related to its long-term goals. Each initiative had specific, intermediate
goals to be achieved on various dates over the next 15 years.

Potential Challenges

In developing a long-term customer service delivery plan, SSA should identify the
potential challenges that could prevent or delay the Agency from reaching its goals, and
identify strategies to overcome those challenges. Events outside SSA’s control can
cause changes in the Agency’s workloads and priorities. SSA specifically identified
funding and resource limitations as the greatest potential challenge in meetings its
goals. For example, SSA’s FY 2011 appropriation was nearly $1 billion less than the
President’s budget request.

SSA could look to the strategic plan of the National Aeronautics and Space
Administration (NASA) for best practices in identifying potential challenges and
solutions to those challenges. NASA’s strategic plan identified potential challenges and
solutions to the potential challenges for each strategic goal. 20

FEDERAL GUIDANCE AND BEST PRACTICES

In addition to the best practices identified above, SSA should also consider Federal
guidance and additional best practices from other Government entities when developing
its long-term customer service delivery plan. The following examples offer additional
guidance and best practices for SSA to consider when developing its plan.

• The CIO of the United States recently offered guidance to Executive agencies
  regarding Federal IT management. Specifically, the CIO released reports discussing
  Federal IT management reform 21 and the Government’s strategy on cloud
  computing. 22 SSA should ensure its long-term customer service delivery plan is
  consistent with the guidance provided by the CIO.



18
     United Way, Goals for the Common Good: The United Way Challenge to America, 2008.
19
     NNSA, Strategic Plan, May 2011.
20
     NASA, 2011 NASA Strategic Plan, February 14, 2011.
21
 Vivek Kundra, U.S. CIO, 25 Point Implementation Plan to Reform Federal Information Technology
Management, December 9, 2010.
22
     Supra note 15.


SSA’s Customer Service Delivery Plan (A-07-11-01125)                                             10
•     The U.S. Postal Service’s (USPS) Action Plan for the Future outlines (1) how the
      USPS got to its current condition, (2) how conditions at USPS will potentially worsen
      without fundamental change, and (3) the actions management and Congress can
      take to avoid or lighten the effect of worsening conditions.23 By following the best
      practices of the USPS plan, SSA could ensure its long-term customer service
      delivery plan offers an understanding of SSA’s current climate, how SSA plans to
      serve its customers in the future, and how SSA will transition into the future.

•     The General Services Administration’s Office of Citizen Services and Innovative
      Technologies offers a 10-step plan to “. . .develop and implement an effective
      customer service strategy.” 24 By following the 10-step plan, SSA should be able to
      develop effective strategies for its long-term customer service delivery plan. The
      10 steps are as follows.

              1. Identify target customers
              2. Determine what customers want
              3. Create a culture of customer service
              4. Clearly communicate service standards and expectations
              5. Provide consistent service across channels
              6. Establish a vision for customer service excellence
              7. Implement an external strategy
              8. Focus on recruiting and retaining good employees
              9. Empower employees to resolve customer service problems
              10. Develop good communications and rewards systems.




23
     USPS, Ensuring a Viable Postal Service for America: An Action Plan for the Future, 2010.
24
     The 10-step plan can be accessed at http://www.howto.gov/customer-service/strategic-planning.


SSA’s Customer Service Delivery Plan (A-07-11-01125)                                                 11
                                                             Conclusions
SSA must develop a long-term customer service delivery plan that serves as a roadmap
for ensuring the Agency is technologically and structurally prepared with appropriate
staff to address increased workloads and provide service delivery in an electronic
environment. The plan must identify what the service delivery environment will be in the
future, including what services customers will expect and how they will want to receive
services. The plan must also include timelines and performance metrics to reach its
long-term customer delivery goals. In addition, SSA must exert strong leadership to
implement the long-term service delivery plan. In commenting on our draft report, the
Agency agreed that a long-term customer service delivery plan is needed. The Agency
further stated that it will develop a long-term plan.




SSA’s Customer Service Delivery Plan (A-07-11-01125)                                 12
                                           Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Citizen-to-Government Electronic Services




SSA’s Customer Service Delivery Plan (A-07-11-01125)
                                                                   Appendix A

Acronyms
    ASP                Agency Strategic Plan

    BRAC               Base Realignment and Closure

    CIO                Chief Information Officer

    COBOL              Common Business Oriented Language

    DoD                Department of Defense

    EM                 Emergency Messages

    FR                 Federal Register

    FSTAP              Future Systems Technology Advisory Panel

    FY                 Fiscal Year

    HIT                Health Information Technology

    IT                 Information Technology

    NASA               National Aeronautics and Space Administration

    NCC                National Computer Center

    NNSA               National Nuclear Security Administration

    OIG                Office of the Inspector General

    OMB                Office of Management and Budget

    SSA                Social Security Administration

    SSAB               Social Security Advisory Board

    SSI                Supplemental Security Income

    USPS               U.S. Postal Service

    VSD                Video Service Delivery




SSA’s Customer Service Delivery Plan (A-07-11-01125)
                                                                     Appendix B

Scope and Methodology
To address Congressman Johnson’s request related to the Social Security
Administration’s (SSA) long-term customer service delivery planning, we:

• Reviewed applicable Federal laws and guidance related to customer service delivery
  planning.

• Reviewed customer service delivery and strategic plans from other Federal agencies
  and private industry.

• Obtained information from SSA’s Offices of Operations, Systems, Quality
  Performance, Communications, and Chief Information Officer (CIO), including:

          o Whether SSA had a long-term customer service delivery plan.
          o The number of transactions SSA anticipates processing in Fiscal
            Year 2020.
          o The citizen-to-government Internet applications currently implemented and
            planned for the future.
          o SSA’s planned use of new and evolving technologies.
          o How SSA will transition its workforce to meet new customer service
            demands.
          o Potential challenges SSA anticipates in reaching its goals.

Our work was conducted at the Office of Audit in Kansas City, Missouri, from April
through June 2011. The entities reviewed were the Offices of Operations, Systems,
Quality Performance, Communications, and CIO. We conducted our review in
accordance with the Council of Inspectors General on Integrity and Efficiency’s Quality
Standards for Inspection and Evaluation.




SSA’s Customer Service Delivery Plan (A-07-11-01125)
                                                                                 Appendix C

Citizen-to-Government Electronic Services
To address the needs of its customers, the Social Security Administration (SSA) offers
21 citizen-to-government electronic services via the Internet. 1

                                             Table C-1
                   Current Citizen-to-Government Electronic Services
           SSA Internet                                                         Implementation
                                               Description
           Application                                                               Date
          Spanish
                              Internet users can enter retirement data
    1     Retirement                                                             December 2010
                              to get benefit estimates in Spanish.
          Estimator
                              Individuals can schedule an
    2     iAppointment        appointment with a servicing field office             June 2010
                              online.
                              Allows Internet users who meet certain
          Medicare-Only
    3                         criteria to file for Medicare-Only                  February 2010
          Application
                              benefits.
                              A citizen-to-government Web
          Revised Adult       application that collects information
    4     Disability          (medical data and work history) on                 December 2009
          Report 3368         disability reports in conjunction with
                              disability claims.
                              SSA developed a special notice option
                              to respond to a court order to collect
                              responses from Social Security
                              beneficiaries and Supplemental
          Special Notice      Security Income recipients,
    5                                                                            November 2009
          Option              representative payees, and claimants
                              who are blind or visually impaired. This
                              process captures individuals'
                              preferences for receiving notices and
                              other communications from SSA.
                              This application gives claimants the
          Application
    6                         ability to check the status of their claim         December 2008
          Status
                              online.


1
  Until March 2011, SSA offered 22 citizen-to-government electronic services. However, in March 2011,
SSA disabled its online request for a Social Security Statement (see SSA, EM-11021). The online
request for a Social Security Statement was implemented in March 1996.


SSA’s Customer Service Delivery Plan (A-07-11-01125)                                              C-1
                                         Table C-1
                 Current Citizen-to-Government Electronic Services
          SSA Internet                                                    Implementation
                                          Description
          Application                                                          Date
         Retirement         Internet users can enter retirement data
   7                                                                        July 2008
         Estimator          to get benefit estimates online.
                            Medicare Prescription Drug Plan Help
         i1020              allows Medicare beneficiaries, family
   8     (Applicant & 3rd   members and caregivers, and other               June 2005
         Party)             third parties to apply online for help with
                            prescription drug costs.
                            Ability to change an address or
         Change of
                            telephone number as early as 3 months
         Address
   9                        before the effective date of change           February 2004
         (Knowledge-
                            through the successful completion of a
         Base)
                            series of knowledge based questions.
                            Upon an unfavorable medical
         Appeal
                            determination/decision notice, claimants
   10    Disability                                                       February 2004
                            can opt to complete an appeals
         Report 3441
                            package through the Internet.
         Child Disability   Individuals can complete the Disability
   11                                                                     November 2003
         Report 3820        Report-Child (SSA-3820) online.
         Public Fraud       An online form to report allegations of
   12    Reporting          fraud, waste, and abuse concerning            December 2002
         Form               SSA’s programs and operations.
         Disability         Claimants can apply for disability
   13                                                                      January 2002
         Application        benefits online.
                            Using a personal identification number
         Direct Deposit     and password, beneficiaries can start or
   14                                                                      August 2001
         (Password)         change direct deposit data for Social
                            Security benefits over the Internet.
                            Beneficiaries can update their Social
         Change of
                            Security benefits address through the
   15    Address                                                            April 2001
                            Internet using a personal identification
         (Password)
                            number and password.
         Spouse             Claimants can apply for spousal
   16                                                                       March 2001
         Application        benefits online.




SSA’s Customer Service Delivery Plan (A-07-11-01125)                                      C-2
                                         Table C-1
                 Current Citizen-to-Government Electronic Services
          SSA Internet                                                  Implementation
                                          Description
          Application                                                        Date
                            Beneficiaries can obtain information
                            SSA has on record through the Internet
         Check Your
                            using a personal identification number
   17    Social Security                                                February 2001
                            and password. Examples include direct
         Benefits
                            deposit, Medicare, benefit payments, or
                            overpayment information.
         Retirement         Claimants can apply for retirement
   18                                                                   November 2000
         Application        benefits online.
         Medicare           Medicare beneficiaries can request a
   19    Replacement        replacement Medicare card over the            July 2000
         Card               Internet.
                            A beneficiary can request a
         Replacement        replacement SSA-1099/1042S Social
   20                                                                     March 1999
         1099               Security Benefit Statement over the
                            Internet.
         Proof of
                            Beneficiaries can view, print, or request
         Income Letter
   21                       to be mailed a proof of income                March 1999
         (Benefit
                            statement.
         Verification)




SSA’s Customer Service Delivery Plan (A-07-11-01125)                                   C-3
                             DISTRIBUTION SCHEDULE

Commissioner of Social Security

Chairman and Ranking Member, Committee on Ways and Means

Chief of Staff, Committee on Ways and Means

Chairman and Ranking Minority Member, Subcommittee on Social Security

Majority and Minority Staff Director, Subcommittee on Social Security

Chairman and Ranking Minority Member, Committee on the Budget, House of
 Representatives

Chairman and Ranking Minority Member, Committee on Oversight and Government Reform

Chairman and Ranking Minority Member, Committee on Appropriations, House of
 Representatives

Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
 Education and Related Agencies, Committee on Appropriations, House of Representatives

Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate

Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate

Chairman and Ranking Minority Member, Committee on Finance

Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions and
 Family Policy

Chairman and Ranking Minority Member, Senate Special Committee on Aging

Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
